CERTIFICATE OF SERVICE

I HEREBY CERTIFY that on this

day of June, 2019, a copy of the

Petitioner's Application to Extend a Time to File the Stay and Petition for a Writ of
Certiorari are mailed via first- class mail, postage pre-paid, to

Clerk Patricia S. Connor, and Chief Judge, Robert L. Gregory
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, VA. 23219

Mr. Brian E. Frosh
State Attorney General of Maryland
200 ST. Paul Place,
Baltimore, MD 21202

Mr. James N. Lewis
Assistant Attorney General
Maryland Department of Health
300 W. Preston Street, Suite 302
Baltimore, MD 21201

.

XiacrYing Yu

1

